CHARLES E. LIPSEY
571.203.2755
charles.lipsey@finnegan.com

April 20, 2020
Via Electronic Filing
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

CJ Cheiljedang et al. v. Int’l Trade Comm’n et al., No. 19-1062

Dear Mr. Harris:
I am counsel for Respondents Ajinomoto Co., Inc. and Ajinomoto Animal Nutrition North
America, Inc. (“Ajinomoto”) in the above-captioned matter. Pursuant to Rule 30.4 and this Court’s
Orders of March 19, 2020 and April 15, 2020, regarding to extensions pertaining to COVID-19, I
am writing to request a 14-day extension of time to file Ajinomoto’s brief in opposition to
certiorari.
The petition for certiorari was docketed on February 26, 2020. Ajinomoto was previously
granted a 30-day extension such that Ajinomoto’s opposition is currently due on April 27, 2020.
If this requested 14-day extension is granted, Ajinomoto’s opposition will be due on May 11, 2020.
Counsel for Petitioners CJ CheilJedang Corp., CJ America, Inc., PT. CheilJedang Indonesia, and
for Respondent International Trade Commission, have consented to this request for extension of
time and electronic service.
Ajinomoto respectfully requests this extension of time due to difficulties relating to
COVID-19, which have presented unforeseen complications for this and other pressing matters
being handled by the attorneys on this case. In addition to the above-referenced petition, the
communications and logistical difficulties associated with the pandemic are complicating several
ongoing district court actions, proceedings in the U.S. Patent and Trademark Office, and appeals
to the U.S. Court of Appeals to the Federal Circuit. I believe the requested extension of time is
reasonable under the circumstances and will ensure sufficient time to fully analyze and respond to
arguments raised in the petition for certiorari in this case.
Thank you in advance for your consideration of this matter.
Sincerely,
/s/ Charles E. Lipsey

901 NEW YORK AVENUE, NW | WASHINGTON, DC 20001-4413
PHONE: 202.408.4000 | FAX: 202.408.4400

(Page 2)
Charles E. Lipsey
Counsel for Respondent
Ajinomoto Co., Inc., Ajinomoto Animal
Nutrition North America, Inc.
cc (via email):
Douglas Harry Hallward-Driemeier
Ropes & Gray
2099 Pennsylvania Avenue, NW
Washington, DC 20006-6807
douglas.hallward-driemeier@ropesgray.com
Counsel for Petitioner, CJ CheilJedang
Corp., CJ America, Inc., PT., CheilJedang
Indonesia

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Supreme CtBriefs@USDOJ.gov
Counsel for Respondent, International Trade
Commission

FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP

